                                    SOCIAL SECURITY

MEMORANDUM

Date:   August 1, 2002                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: CaseFolder Storage and Retrieval at the Social Security Administration’s Megasite
        Records Center (A-04-99-62006)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Social Security Administration’s (SSA) management of title II case folder
        storage and retrieval at the Rolling Heights Megasite and to determine the cause for
        folder request processing delays and missing case folders.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    CASE FOLDER STORAGE AND
         RETRIEVAL AT THE
 SOCIAL SECURITY ADMINISTRATION’S
    MEGASITE RECORDS CENTER

 August 2002         A-04-99-62006
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE
Our objectives were to evaluate the Social Security Administration’s (SSA) management
of title II case folder storage and retrieval at the Rolling Heights Megasite (Megasite)
and to determine the cause for folder request processing delays and missing case
folders.

BACKGROUND
SSA strives to provide its customers world-class service. One way to measure good
customer service is through the timeliness of SSA’s actions. SSA’s ability to quickly find
claims folders is critical to ensuring the integrity of SSA’s actions including disability
determinations and continuing payments. Finding or replacing missing medical folders
is costly. Even more costly is the erroneous continuation of title II disability benefits to
an individual who is no longer disabled but continues to receive benefits because SSA
personnel cannot locate the medical folder containing prior diagnostic information. SSA
stores much of the needed title II disability information at the Megasite.

SSA’s Office of Central Operations operates the Megasite, which houses over
4.7 million active title II disability folders for individuals under 55 years old. Field offices,
Disability Determination Services (DDS), hearing offices, and program service
centers (PSC) routinely request case folders from the Megasite to facilitate initial and
post-entitlement actions. In August 1998, SSA hired a contractor to provide all clerical
and file support involved in filing and retrieving individual folders, filing loose
documentation in folders, and deactivating folders. Since August 1998, SSA has paid
the Megasite contractor over $24 million for these services as well as to maintain the
overall integrity of the folder inventory. Included in this amount is almost $1 million SSA
paid the contractor during 1998 and 1999 to sequence and validate the Megasite folder
inventory. The contractor tracks folder requests and movement through the Processing
Center Action Control System (PCACS).

We began this audit after receiving frequent complaints from field offices, DDSs,
hearing offices, and regional components (components) regarding long delays in
obtaining requested folders and a high rate of “lost” folders. Most complainants could
not provide concrete evidence or data to support their allegations. However, one DDS
did provide evidence supporting a lost folder rate of approximately 20 percent. We also
encountered difficulty in obtaining requested folders when conducting financial and
performance audits. As noted in Appendix A, the Office of the Inspector General and its
contractors experienced unfilled folder requests ranging from 7 to 52 percent.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)            i
To accomplish our objectives, we reviewed operations at SSA’s three major folder
storage locations to gain an understanding of the differences among the facilities.1 We
also visited field offices, hearing offices, and DDSs in the respective regions to establish
that folder problems were not isolated to one region or geographic area. This audit
focuses on operations at the Megasite folder storage facility.

To test the Megasite’s ability to fulfill folder requests, we used a variety of approaches
both statistical and non-statistical. In brief, we:

·   Surveyed a 5-percent random sample of SSA components to gather their opinions
    on the folder retrieval process.

·   Analyzed a sample of folders requested by the 5-percent sample of components and
    followed up to obtain information regarding folder timeliness and completeness.

·   Obtained data files used to generate folder retrieval lists at the Megasite and, using
    statistical samples, tested the computerized PCACS inventory and physical
    inventory at the Megasite.

RESULTS OF REVIEW
Case folder retrieval remains a significant problem for field offices, DDSs, hearing
offices, and PSCs. Complaints are commonplace. Since August 1998, SSA has paid
the Megasite contractor over $24 million to control the movement of folders in and out of
the facility and to preserve the folder inventory’s overall integrity. However, we found
the inventory was inaccurate because the contractor and other responsible SSA parties
had not properly maintained and updated the Megasite’s folder inventory and PCACS.
As a result, SSA components were unable to obtain case folders timely, which caused a
ripple effect on other critical SSA missions.

PROBLEMS OBTAINING CASE FOLDERS
To evaluate the extent of the overall problems experienced in obtaining folders, we
queried 100 randomly selected components including field offices, DDSs, hearing
offices, and PSC modules. Our intent was to obtain candid opinions and identify
specific problems encountered as related to the title II and title XVI folder request
processes. Of these components, about 85 percent used PCACS when requesting
folders. The other 15 components requested folders directly via fax, telephone, or
administrative message. Of the 91 components that routinely requested case folders,
69 (76 percent) experienced difficulties. For example, 34 of the 91 components
experienced untimely folder receipts, with 27 noting that it often took over 30 days for a
folder to arrive. Most of the 91 components, 76 percent, complained that they were
routinely forced to reconstruct title II folders when the original folder could not be located

1
 Rolling Heights Megasite, Baltimore, Maryland; Kansas City Centralized Folder Storage, Independence,
Missouri; Wilkes-Barre Folder Servicing Operation; Wilkes-Barre, Pennsylvania.

Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                ii
or the medical evidence was missing. As a result, certain claim decisions and actions
were unnecessarily delayed, and scarce resources were wasted trying to locate and
reconstruct folders. In these instances, SSA offices may have inconvenienced
customers and left them skeptical of the Agency’s ability to safeguard important
documents.

MEGASITE INVENTORY MISSTATED
SSA and its contractor did not properly maintain and update the Megasite physical
folder inventory and PCACS computerized inventory. The contractor is responsible for
preserving the integrity of the Megasite inventory and the inventory records. Even
though SSA paid the contractor about $1 million to sequence and validate the inventory,
18 months after completion, our tests identified large numbers of inventory errors and a
variety of housekeeping problems.2

For example, 5 percent of folders we statistically selected on the Megasite floor to trace
to the PCACS inventory record were not listed. This means that 1 of every 20 folders or
approximately 238,000 folders may not be inventoried. In testing the PCACS inventory
record to actual folders on the Megasite floor, we found additional folders missing,
which could equate to approximately 95,000 folders improperly listed in PCACS as
located at the Megasite. These errors may have occurred because the contractor
neglected to scan all folders in and out of the Megasite, which would undermine the
integrity of the Megasite inventory. We also determined that the contractor did not
merge temporary folders with the primary folder, as required, or transfer folders of
beneficiaries over the age of 55 as instructed to the Kansas City Centralized Folder
Storage facility. These and other inventory deficiencies combined with the lack of
housekeeping leaves us concerned about the accuracy of the Megasite’s physical and
computerized PCACS inventory. With an inaccurate and poorly maintained inventory,
Megasite title II disability folders may not be readily accessible when needed for claims
or post-entitlement actions.

FOLDERS NOT DELIVERED TIMELY
Folders should be scanned out of the PCACS inventory and readied for shipping from
the Megasite within a 24-hour period.3 Requesting components waited more than
2 weeks to receive over 60 percent of the PCACS folder requests we tested. In
contrast, the folder delivery rate for Continuing Disability Reviews (CDR) was much
higher, with 84 percent of the folders we tracked being delivered within the 2-week
period. Although we are encouraged by the timeliness of scheduled CDR folder request
deliveries, we do not believe the time required to obtain other PCACS folders is
reasonable or acceptable. For 15 PCACS requests going to the Megasite during our

2
  SSA’s contract with the contractor defined “housekeeping activities” as resolving work discrepancies,
replacing torn or damaged folder jackets, replacing damaged or incorrect bar-code labels, and
replacing/adding/relabeling any damaged or absent boxes. (Contract No. 0600-98-34420 Section C-8, F.)
3
    Contract, section C-8, C.

Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                 iii
sample period, 10 (66 percent) were not scanned out of the PCACS inventory and
readied for shipping from the Megasite within the 24-hour contract period. For 7 of
these 10 folders, it took the contractor 5 or more days to locate and ship the folder.
Poor inventory and housekeeping practices may affect the contractor’s ability to fulfill
folder requests timely. Other delays in delivering folders to field components could
result from problems at SSA’s mailrooms or with the U.S. Postal Service. As discussed
above, if folders cannot be delivered timely, field components may be forced to
reconstruct folders if the original claim folder cannot be provided timely or the needed
documentation is missing.

CONCLUSION AND RECOMMENDATIONS
The Megasite’s physical inventory and PCACS computerized inventory were not
accurate, and folders were not being delivered to field components timely. The records
maintained at the Megasite are essential for SSA to make sound decisions regarding
title II disability entitlements. If SSA cannot readily find needed records and provide
those records to field components in a timely manner, SSA may not be able to
adequately fulfill established program goals.

SSA should do more to oversee the Megasite contractor’s efforts to ensure the integrity
of the inventory and the inventory system. Therefore, we recommend that SSA:

·   Perform independent quality assurance reviews to ensure the integrity of the
    Megasite’s folder inventory. As part of the quality assurance review, SSA should
    assess and document the contractor’s performance in accordance with the contract
    provisions. SSA should routinely verify that the contractor is:

       -   processing all folder requests within the 24-hour time frame established
           under the contract;
       -   scanning all folders entering and leaving the Megasite facility;
       -   properly filing primary folders, merging temporary folder information with the
           primary folders and deleting the temporary folder records from PCACS;
       -   pulling all over-55 folders as instructed and sending them to Kansas City; and
       -   performing general housekeeping duties.

·   In accordance with the contract, instruct the contractor to resequence and revalidate
    the Megasite inventory at the contractor’s expense if, as a result of SSA’s quality
    assurance reviews, SSA determines there are unacceptable numbers of misfiled and
    poorly controlled folders.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)   iv
To help identify existing problems in the Megasite inventory, we suggest that SSA
develop as part of PCACS an automated process to periodically identify all records in
which:

       -   A primary folder and temporary folder(s) for a beneficiary are located at the
           Megasite. With these data, SSA can require the contractor to merge the
           temporary folder(s) documentation with the primary folder and delete the
           temporary folder record(s) from PCACS.

       -   Temporary folders exist, but a primary folder record is not listed in PCACS.
           From these data, SSA or the contractor can search for the primary folders
           and, once located, reinstate them into PCACS.

       -   The beneficiary is over 55 years of age. To free needed storage space at the
           Megasite, SSA should explore the possibility of increasing the number of
           annual over-55 folder shipments to the Kansas City Caves. In addition, SSA
           should continue to use the claimant’s date of birth as the selection criteria to
           ensure that all over-55 folders are identified for shipment.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our overall recommendations. With
regard to our third recommendation, SSA stated that locating primary folders and
reinstating them into PCACS is outside the contractor’s scope of responsibility.
However, SSA is developing a process whereby its Megasite employees can locate and
reinstate primary folders into PCACS. SSA also stated the Kansas City Caves would
not accept more than one shipment of over age 55 folders because of workloads,
space, and transportation. SSA provided other comments, and we incorporated them
into the report as appropriate. See Appendix D for the full text of SSA's comments.

OIG RESPONSE
We concur with SSA’s plan to develop a process for the Megasite employees to locate
and reinstate primary folders into PCACS. Regarding shipments to the Kansas City
Caves, we understand that logistical circumstances may not be conducive to frequent
shipments. However, when the Megasite identifies a large population of over age 55
folders, we urge SSA to negotiate special shipments instead of waiting for the annual
shipment.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)       v
                                                     Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

Problems Obtaining Case Folders ..........................................................................5

Megasite Inventory Misstated..................................................................................7

Folders Not Delivered Timely ................................................................................13

CONCLUSIONS AND RECOMMENDATIONS.....................................................18


APPENDICES

APPENDIX A – Prior Social Security Administration Office of the
             Inspector General and Other Reviews

APPENDIX B – Supplemental Background Information

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contact and Staff Acknowledgments




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                                                                   Acronyms

 CDR                        Continuing Disability Review
 DDS                        Disability Determination Services
 FY                         Fiscal Year
 OCO                        Office of Central Operations
 OHA                        Office of Hearings and Appeals
 OIG                        Office of the Inspector General
 PCACS                      Processing Center Action Control System
 POMS                       Program Operations Manual System
 PSC                        Program Service Center
 PwC                        PricewaterhouseCoopers
 SSA                        Social Security Administration
 SSN                        Social Security Number
 USPS                       U.S. Postal Service
 WBFSO                      Wilkes-Barre Folder Servicing Operation




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                                                                      Introduction
OBJECTIVE
Our objectives were to evaluate the Social Security Administration’s (SSA) management
of title II case folder storage and retrieval at the Rolling Heights Megasite (Megasite)
and to determine the cause for folder request processing delays and missing case
folders.

BACKGROUND
SSA strives to provide its customers world-class service. One way to measure good
customer service is through the timeliness of SSA’s actions. SSA’s ability to promptly
react is often directly dependent on its ability to retrieve historical claim information.
Historical files may be needed for a variety of reasons, such as new claims, appeals,
attorney reviews and litigation, and Continuing Disability Reviews (CDR). For disability
cases subject to a CDR, SSA personnel need the prior title II disability folder to
determine whether the beneficiary’s medical condition has improved. SSA’s ability to
quickly find claims folders is an important part in upholding the integrity of SSA’s
disability determinations and continuing payments. Finding or replacing missing
medical folders is costly. Even more costly is the erroneous continuation of title II
disability benefits to an individual who is no longer disabled but continues to receive
benefits because SSA personnel cannot locate the medical folder containing prior
diagnostic information. SSA stores much of the needed title II disability information in
folders at the Megasite.

SSA’s Office of Central Operations (OCO) operates the Megasite, which houses over
4.7 million active title II disability folders for individuals under 55 years old. The Offices
of Disability Operations and International Operations store folders at the Megasite.
Field offices, Disability Determination Services (DDS), hearing offices, and program
service centers (PSC) routinely request case folders from the Megasite to facilitate initial
and post-entitlement actions. SSA hired a contractor to provide all clerical and file
support involved in filing and retrieving individual folders, filing loose documentation in
folders, and deactivating folders. Since August 1998, SSA has paid the Megasite
contractor over $24 million for these services as well as to preserve the folder
inventory’s overall integrity. Included in this amount is almost $1 million SSA paid the
contractor in 1998 and 1999 to sequence and validate the Megasite folder inventory.
The contractor tracks folder requests and movement through the Processing Center
Action Control System (PCACS).1



1
  PCACS was created for the PSCs to control their workload of folders, paper and diaries. PCACS also
identifies the kind of folder, action or diary and tells where the item is located and how long it has been
there.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                      1
The Program Operations Manual System (POMS) instructs components to use PCACS
when requesting folders from storage facilities.2 SSA processes the requests overnight.
During processing, several computer programs “clean” the data and segment them into
a print file sorted by terminal digit range.3 The Center for Systems and Logistics prints
each folder request on a single sheet of paper and delivers the papers to the Megasite
the next morning. Once the printed request package arrives at the Megasite, SSA staff
reviews the requests for errors and provides them to the contractor. The contractor
separates the individual requests by terminal digit and assigns them to the floor staff for
retrieval. The contractor is also tasked with pulling title II disability folders needed for
system-scheduled CDRs and other special workloads. Per the contract, the contractor
has 1 workday to pull the requested folders and scan the folders out of the PCACS
inventory.

The OCO mailroom processes most of the Megasite folders. Mailroom staff picks up
folders at the Megasite via truck twice daily. At the mailroom, OCO staff sorts the
folders by State and places them in appropriately addressed envelopes or boxes. They
then weigh, post and mail the folders within a 24-hour period. SSA uses the U.S. Postal
Service (USPS) to mail Megasite folders. Federal Express is used only for extremely
urgent requests.4

We began this audit after receiving frequent complaints from field offices, DDSs,
hearing offices, and regional components (components) regarding long delays in
obtaining requested folders and a high rate of “lost” folders. Most complainants could
not provide concrete evidence or data to support their allegations. However, one DDS
did provide evidence supporting a lost folder rate of approximately 20 percent. We also
encountered difficulty in obtaining requested folders when conducting financial and
performance audits. As noted in Appendix A, the Office of the Inspector General (OIG)
and its contractors experienced unfilled folder requests ranging from 7 to 52 percent.

SCOPE AND METHODOLOGY
To accomplish our objectives, we reviewed operations at SSA’s three major folder
storage locations5 to gain an understanding of the differences among the facilities. We
also visited field offices, hearing offices, and DDSs in those three regions to establish
that folder problems were not isolated to one region or geographic area. In performing
our audit, we:

¨ Reviewed the POMS related to development, processing, storing, and accessing
  title II and title XVI folders.
2
    POMS DG 97-093.
3
    The last four digits of the Social Security number.
4
    See Appendix B for supplemental background information.
5
 Rolling Heights Megasite, Baltimore, Maryland; Kansas City Centralized Folder Storage, Independence,
Missouri; Wilkes-Barre Folder Servicing Operation; Wilkes-Barre, Pennsylvania.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)              2
¨ Reviewed prior OIG and PricewaterhouseCoopers (PwC) audit work related to
  problems associated with requesting and obtaining title II and title XVI folders.

¨ Reviewed internal SSA documentation related to problems with folder storage,
  accession and mailing costs.

¨ Interviewed Office of Systems personnel to obtain an understanding of PCACS and
  the Supplemental Security Insurance Control System.

¨ Reviewed folder storage and retrieval operations at the Megasite, Kansas City
  Centralized Folder Storage (Caves), and Wilkes-Barre Folder Servicing Operation
  (WBFSO).

¨ Interviewed SSA and contractor personnel involved in managing folder storage and
  retrieval systems at all three folder storage facilities.

¨ Gathered limited background information and interviewed staff concerning SSA’s
  various efforts to move toward a paperless environment for claims and medical
  information.

¨ Observed the paperless scanning process used to image incoming documentation at
  the PSCs in a move toward paperless processing.

Because SSA components attributed few problems with folder requests directed to the
Caves, we elected not to conduct any further audit work at that facility at this time.
Allegations of problems at the WBFSO were similar to those attributed to the Megasite.
Nevertheless, because the WBFSO planned to sequence and validate its inventory to
remedy some of the outstanding issues, we suspended audit work at that facility to
allow time to complete the process. Therefore, we focused our initial audit work on the
Megasite because this location had completed the sequencing and validation of its
inventory, and management had reported improved operations.

To test the Megasite’s ability to fulfill folder requests, we used a variety of approaches
both statistical and non-statistical. Appendix C describes our statistical methodology
and results. In brief, we:

¨ Surveyed a 5-percent random sample of SSA components to gather their opinions
  on the folder retrieval process.

¨ Analyzed a sample of folders requested by the 5-percent sample of components and
  followed up to obtain information regarding folder timeliness and completeness.

¨ Obtained data files used to generate folder retrieval lists at the Megasite and, using
  statistical samples, tested the computerized PCACS inventory and physical
  inventory at the Megasite.



Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)     3
We performed our field work from August 1999 to December 2001. Our audit included
an evaluation of existing controls, policies and procedures specifically related to folder
processing at the Megasite facility. While we tested the reliability of the Megasite’s
computerized PCACS inventory, we did not determine the reliability of the entire
PCACS system or evaluate internal controls over that system. Our findings include any
control weaknesses identified and our recommendations to correct the deficiencies,
where appropriate. The entity audited was the Center for Material Resources and
Support within the Office of Central Operations. We performed our audit in Baltimore,
Maryland; Independence, Missouri; Wilkes-Barre, Pennsylvania; and Atlanta, Georgia.
We conducted our audit in accordance with generally accepted government auditing
standards.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)    4
                                                Results of Review
Case folder retrieval remains a significant problem for field offices, DDSs, hearing
offices, and PSCs. Complaints are commonplace. Of the offices surveyed that
requested title II folders, 76 percent reported difficulties. These problems included
(1) non-receipt of requested folders, (2) receipt of wrong folders, (3) long delays,
(4) folders provided without necessary medical evidence, and (5) folders not located
where listed in PCACS.

Since August 1998, SSA has paid the Megasite contractor over $24 million to control
the movement of folders in and out of the facility and to preserve the overall integrity of
the folder inventory. However, the contractor and other responsible SSA parties have
not properly maintained and updated the Megasite’s folder inventory and PCACS. SSA
components’ inability to obtain case folders in a timely fashion may have had a ripple
effect on other critical SSA missions. For example, SSA delayed certain claim
decisions and actions and expended scarce resources trying to locate and reconstruct
folders. Additionally, SSA offices may have inconvenienced customers and left them
skeptical about the Agency’s ability to safeguard important documents.

PROBLEMS OBTAINING CASE FOLDERS
To evaluate the extent of the overall problems experienced in obtaining folders, we
queried 100 randomly selected components including field offices, DDSs, hearing
offices, and PSC modules. Our intent was to obtain candid opinions and identify
specific problems encountered as related to the title II and title XVI folder request
processes. Of these components, about 85 percent used PCACS when requesting
title II folders. Other components requested folders via fax, telephone, or administrative
message. Of the 91 components that routinely requested title II case folders,
69 components (76 percent) claimed they experienced difficulties obtaining them in a
timely, accurate and complete fashion.6

The most recurring problem cited was the untimely receipt of folders (34 components).
These delays can cause significant problems for claims processing locations. For
example, one hearing office made the following statement.

        Judges are unable to make decisions on a current case because there is
        pertinent information in the prior file that is needed to make an accurate
        decision. There is a problem when we receive a request for a second
        hearing in OHA but the first hearing file cannot be requested because it
        is not listed in PCACS. It is frustrating when a file is remanded back to
        our office from the Appeals Council stating they are unable to locate the

6
  Respondents were not limited to providing one answer; therefore, problems reported are greater than
the number of components responding.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                    5
        file to make their decision. This is a very time consuming process
        because the file has to be reconstructed. It also does not look good that
        our organization loses so many claim files.

Twenty-seven components noted it often took over 30 days to receive a requested
folder. Twenty-two of the 91 components received folders with no medical evidence or
the wrong files. Sixteen components indicated folders were often subsequently found in
locations other than where PCACS indicated. Further, a small number of sample
respondents indicated that PCACS is not user-friendly and requested training to
understand the various codes used in PCACS. Respondents also suggested that
PCACS be modified to maintain a history of folder movement. Additionally, components
recommended that storage facilities pull all related folders in multiple filing situations
and determine whether the correct folder is being sent.

Sixty-nine (76 percent) of the 91 SSA components surveyed reported they routinely
reconstructed title II folders when the contractor could not locate the original file. As
one District Manager explained, the components often must attempt to reconstruct
medical evidence, which may be irreplaceable. If the medical evidence cannot be
satisfactorily reconstructed, beneficiaries continue to collect SSA benefits because no
comparison point decision7 information exists to adequately gauge medical
improvement. Reconstructing folders can also pose a significant public relations
problem because SSA must obtain critical information from the claimant and, from a
resource standpoint, the reconstruction process is time-consuming and expensive.

One DDS we interviewed alleged a high rate of “lost” folders and provided some
detailed information regarding their experiences. The DDS reported it reviewed a
random sample of 993 CDR folder requests from January 1999 to January 2000 and
found that 21.8 percent had been misplaced. Another similar review of 504 randomly
selected CDR folders from June 2000 to March 2001 resulted in similar findings.
Specifically, the DDS determined that 96 folders (19 percent) had been misplaced.
From these two samples, the DDS determined that, in cases where the prior folder was
available for adjudication, the CDR resulted in a 9.5- and a 6.1-percent cessation rate,
respectively. In contrast, for CDRs where the folder could not be located, the cessation
rate was estimated at 1.9 and 1.2 percent, respectively. The DDS further estimated that
the cost to reconstruct all the “lost” folders required for adjudication was $2.4 million in
Fiscal Year (FY) 2000 and $2.2 million in FY 2001. Based on the DDS estimation that
each percentage point of cessation equaled $10.1 million in savings, management
estimated that $50.5 million in excessive SSI payments could have been made in this
State because of lost folders.8

7
 The comparison point decision is the latest consideration of medical evidence resulting in a
determination regarding the claimant’s initial or continued disability.
8
  We did not recalculate these estimations or review the sample results. Therefore, we cannot attest to
the accuracy and reasonableness of these figures. Additionally, the DDS obtained this sample from a
universe of title II and title XVI folder requests submitted to multiple storage facilities, not only the
Megasite.



Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                    6
We noted from our questionnaire that users (field components) and the supplier
(Megasite) have different expectations. The user believes the storage facility should
provide all information necessary to perform the required SSA action (for example, a
CDR). The storage facility sees its duty merely to provide the specific information
requested. For example, the user might request a folder for a CDR, expecting the folder
to include medical information. If the folder the user received did not contain medical
information, the user would view the retrieval as unsuccessful. However, the storage
facility would view the retrieval as successful because it sent the folder requested,
irrespective of the folder’s contents.

In our attempt to assess the case folder storage, retrieval and delivery process, it
became evident SSA had no system to track folder movement. Accordingly, it was
difficult for us to determine the exact cause of folder delays. Specifically, delays could
result from inefficiencies at the Megasite, SSA mailrooms, USPS, or the receiving
component. Therefore, we restricted our evaluation to Megasite activities. Our review
included testing the reliability of the inventory and evaluating contractor and SSA
activities associated with inventory maintenance and oversight. As part of this process,
we tracked the actual time it took the Megasite contractor to deliver 103 PCACS and
100 CDR folder requests. Our resulting audit work disclosed that the Megasite folder
inventory and PCACS computerized inventory had numerous errors and, in some
instances, the contractor did indeed provide folders in an untimely manner.

MEGASITE INVENTORY MISSTATED
SSA and its contractor did not properly maintain and update the Megasite physical
folder inventory and PCACS computerized inventory. The contractor is responsible for
preserving the integrity of the Megasite inventory and the inventory records. Even
though SSA paid the contractor about $1 million to sequence and validate the inventory,
18 months later, our tests identified folders not inventoried and missing and a variety of
other inventory housekeeping problems.9 As a result, Megasite title II disability folders
may not be readily available when needed for claims or post-entitlement actions.

SSA stores about 4.7 million title II folders at the Megasite. In 1998 and 1999, the SSA
contractor was paid $740,293 and $258,968, respectively, to sequence and validate the
Megasite folder inventory. From that point forward, the contract required the contractor
to maintain the folder inventory in good condition with folders sequentially filed in the
appropriate boxes and locations accurately recorded in the PCACS computerized
inventory. The contract also required the contractor to “drop-file” title II disability
documents arriving at the Megasite in the appropriate folder or a temporary folder if the
primary folder was out at a field location. When the primary folder was returned to the
Megasite, the contractor was to combine any temporary folders created in its absence
with the primary folder. The contractor would then physically remove the temporary
folder jacket from the box and delete the temporary file record from PCACS, leaving the

9
  SSA’s contract with the contractor defined “housekeeping activities” as resolving work discrepancies,
replacing torn or damaged folder jackets, replacing damaged or incorrect bar-code labels, and replacing/
adding/relabeling any damaged or absent boxes.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                  7
primary folder as the only inventoried file. As part of an on-going quality assurance
process, the contractor indicated it continually validates the inventory. SSA informed us
it previously performed periodic quality assessments of the contractor’s performance by
evaluating the condition of the Megasite inventory. We could not verify the results of
these assessments because SSA did not maintain an archive of the assessment
results. The Agency temporarily stopped these tests early in FY 2001 to devote
resources to other workloads but resumed the assessments as of January 2002, again
with no available records documenting the test results.

To test the maintenance of the Megasite inventory, we developed a two-part statistical
sampling approach (Appendix C). We first selected 200 folders from randomly selected
file boxes on the floor of the Megasite and traced them to the PCACS computerized
inventory (Physical Inventory Test). We reviewed each box for housekeeping issues
and selected the first folder in each sampled box to determine whether the folder was
included on the Megasite’s PCACS inventory listing. We also selected a sample of
100 Office of Disability Operations folders listed in the Megasite PCACS computerized
inventory on March 6, 2001 and traced the sampled items to the designated file
location. For projection purposes, we selected a second sample of 100 folders from the
entire universe of 4,754,668 folders stored for the Offices of Disability Operations and
International Operations on March 7, 2001. We traced the 100 sampled items to the
designated file location (PCACS Computerized Inventory Test). The overall purpose for
conducting these tests was to check for missing or misfiled folders and to identify
inventory housekeeping issues.

Through our tests, we determined the Megasite folder inventory was inaccurate and
incomplete. Specifically, we identified errors during both the physical inventory test and
the test of the computerized PCACS inventory. As shown in Tables 1 and 2, we
identified folders physically located at the Megasite but listed at another location in
PCACS. We also determined that several folders PCACS purported to be at the
Megasite were not. The numbers and types of errors we identified led us to question
the effectiveness of SSA and its contractor in maintaining the integrity of the Megasite
folder inventory. Additionally, we question SSA’s effectiveness in overseeing the
contractor and the folder inventory and retrieval processes.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)    8
Inventory Test Results

As outlined in Table 1, of the 200 folders selected for our physical inventory test, we
identified 32 (16 percent) the contractor or SSA had not inventoried or had improperly
filed.

                        Table 1: Results of Physical Inventory Test
 Inventory Error:                                                                   Number of
                                                                                    Instances
 Primary folders not inventoried                                                          10
 Filing Errors:
 Temporary folder not merged with the primary folder                                         8
 Temporary folders inventoried, but no primary folder                                        6
 Folders, over the age of 55, located at the Megasite10                                      5
 Related folders missing                                                                     3
 Total Errors                                                                               32


As shown in table 2, of the 2 samples of 100 folders selected to test the computerized
PCACS inventory, we identified 3 missing folders in the first sample and 2 more missing
and misfiled folders in the second sample.

               Table 2: Results of PCACS Computerized Inventory Test
 Inventory Error:                                     Number of       Number of
                                                      Instances in    Instances in
                                                      First Sample    Second
                                                      (Not Projected) Sample
                                                                      (Projected)
 Primary folder missing                                       3              1
 Primary folder misfiled                                      0              1
 Filing Errors:
 Temporary folder not merged with the primary folder          1              0
 Folders, over the age of 55, located at the Megasite         6              0
 Total Errors                                                10              2

Although we discovered fewer problems when testing the PCACS computerized
inventory, the aggregate effect of both tests was alarming. After sequencing and
validating the inventory, the contractor was required to maintain the integrity of the
folder inventory. The contract specifically provides that if SSA determines the
contractor improperly filed or controlled a significant number of folders, the contractor
shall, without payment, be required to sequence and validate the entire folder inventory

10
  A computer program is run against the PCACS database to identify folders located at the Megasite that
have reached the over-55 criteria. The contractor then pulls these folders and ships them to Kansas City
for storage. SSA should have identified these 5 folders for shipment to Kansas City for storage since the
ages of the 5 individuals ranged from 57 to 62 years of age.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)                  9
to correct the noted problems and return the files to an acceptable condition.11 We
believe the errors noted during our testing are significant enough to warrant such action.
Without corrective measures, SSA may be unable to locate information needed to make
sound decisions on pending claims and post-entitlement actions.

Folders Not Inventoried

We identified 10 instances (5 percent) in our physical inventory test in which a case
folder was located at the Megasite but listed in PCACS at another location. The error
rate from our sample could indicate that 1 of every 20 folders located at the Megasite
may not be included in the inventory. Projecting to the universe of about 4.7 million
folders identified in PCACS as being located at the Megasite, we estimate that
approximately 238,000 additional folders may be physically located at the Megasite but
improperly listed in PCACS at another facility.12

While we could not ascertain why each folder was not included in the Megasite
inventory, we believe the primary cause relates to scanning failures. When the
Megasite contractor scans a folder’s barcode, PCACS should automatically update the
inventory list to reflect the folder’s location as the Megasite. If the contractor completes
the scanning operation as required, all folders physically located at the Megasite should
be accurately reflected in PCACS. Therefore, it appears that, in these instances, the
contractor did not scan the folder’s barcode when initially validating the Megasite
inventory or when a field component returned a folder to the Megasite.

If a folder is physically located at the Megasite but PCACS lists it at another location,
any request for the folder will be misdirected. Additionally, if an SSA component later
requests the file from the Megasite, the contractor will not perform the search because
PCACS lists the file as being at another location. As a result, SSA may never find the
uninventoried folder. Unless the Megasite is subsequently asked to perform a special
search for the lost folder, the contractor will take no additional action.

Folders Missing

In our initial PCACS computerized inventory test, we identified 3 folders of the
100 sampled folders that could not be located at the Megasite. To statistically project
the results of our testing to the entire population of folders housed at the Megasite, we
selected a second sample of 100 folders representing the Offices of Disability
Operations and International Operations. In our second PCACS computerized
inventory test, we identified two more instances in which PCACS designated the folders
as located at the Megasite, but we were unable to find them in the appropriate box.
Projecting this 2-percent error rate to the universe of approximately 4.7 million folders,
we estimate that approximately 95,000 folders listed in PCACS with a Megasite
designation are either filed improperly or not physically located at the Megasite.

11
     Contract, section C-9, B(3).
12
     Our estimates were made at the 90-percent confidence level.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)      10
After the contractor sequenced and validated the Megasite folder inventory, the physical
inventory and the PCACS computerized inventory should have been in agreement.
Because the PCACS computerized inventory now lists folders that cannot be readily
located during an initial search, we conclude the contractor must have retrieved and
shipped files without properly scanning the folder’s barcode or improperly filed the
folders on their return. With a proper scan, PCACS would show a folder in-transit and
located at another component.

We requested SSA’s Megasite Quality Assurance Team to conduct a special search for
the missing folders in our two samples. Special searches include looking in surrounding
boxes and looking in boxes where the contract staff may have transposed a number.
The Quality Assurance Team located one of the missing folders in our second sample
but found none of the others.

If the contractor cannot locate a folder purportedly at the Megasite, “Ques Ques” is
recorded as its location, meaning the folder’s whereabouts are questionable. As of
March 7, 2001, PCACS identified 90,342 folders with a “Ques Ques” location at the
Megasite.

Improper management of case folders hinders SSA’s ability to provide world-class
customer service. Waiting for folders to move results in lengthy delays, as users must
spend time trying to identify other possible locations where the folder might be found. If
the folder does not move in a reasonable period of time, the requester must reconstruct
the folder information, if possible, to complete the action. Searching for a folder causes
delays, and reconstructing a folder causes SSA to reveal to the claimant that their folder
has been lost. Ultimately, the claimant may question SSA’s ability to safeguard the
records entrusted to its care, and SSA’s ability to provide quality, timely service may be
harmed.

Temporary Folders Not Merged with the Primary Folder

We identified eight instances (4 percent) in our physical inventory test and one instance
in our first PCACS computerized inventory test in which the contractor inventoried both
a primary folder and temporary folder(s) for the same Social Security number (SSN).
This situation should never occur because, when primary folders return to the Megasite,
the contractor should merge documentation included in a temporary folder with the
primary folder and then delete the temporary folder from PCACS. With 8 errors in our
physical inventory sample of 200, we estimate there could be approximately
190,000 temporary folders improperly inventoried in PCACS.

This oversight creates a problem when the field requests a primary folder that has
separate temporary folders. The contractor’s instructions are to ship primary folders,
but temporary folders are to remain. This policy prevents separation of folder material
outside the Megasite if a request is made for a temporary folder. Therefore, if the
contractor does not properly merge the temporary folder with the primary folder, SSA
staff may not receive a complete folder and all available documentation available on



Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)   11
that beneficiary. To make appropriate determinations, it is essential that SSA decision-
makers have all relevant information about a beneficiary.

Temporary Folder Inventoried, But No Primary Folder Listed

We found 6 (3 percent) other instances in our physical inventory test where PCACS
identified a temporary folder, but a primary folder for the same SSN was not listed. A
primary folder should always exist. As described above, when primary folders are sent
to the field and additional file information arrives at the Megasite for that file, the
contractor creates a temporary folder. When the field component returns the primary
folder, the contractor should merge information in the temporary folder with the primary
folder, and the temporary folder should be deleted. If the contractor or another SSA
component inadvertently deletes the primary folder from PCACS, it can no longer be
requested. With 6 instances out of 200, we estimate there may be approximately
143,000 primary folders located at the Megasite or elsewhere that are not inventoried in
PCACS. As such, requestors may be unable to obtain these folders.

Folders for Beneficiaries over Age 55 Located at the Megasite

We estimate the Megasite stored approximately 119,000 folders the contractor should
have relocated to the Kansas City Caves. SSA practice is to move the folders of
beneficiaries reaching age 55 during each annual period from the Megasite to the
Caves. The Caves will only accept over-55 folders from the Megasite once each year
around October. A computer program is run against the PCACS data base to identify
folders located at the Megasite that have reached the over-55 criteria. The contractor
then pulls these folders and ships them to Kansas City for storage. However, we
identified five (2.5 percent) folders in our physical inventory test and six folders in our
first PCACS computerized inventory test where the beneficiary was over age 55. As a
result, valuable storage space needed at the Megasite was unavailable.

SSA could not explain why the contractor had not shipped these folders to Kansas City.
We believe the contractor overlooked the primary folders and created additional
temporary folders after the primary folders were forwarded to the Caves. Standard
computer routines will no longer identify the files the contractor previously overlooked
because the established search criteria only identify folders of beneficiaries that
“turn” 55 during the specified year.

In October 2001, SSA performed a modified search for folders based on the claimant’s
date of birth. This search found approximately 400,000 over-55 folders that could be
shipped to the Caves. Accordingly, SSA should continue to run this special routine to
find all of the over-55 folders and ship them to the appropriate location. In addition,
Megasite staff should take steps to negotiate more frequent shipments of the over-55
folders to the Caves.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)      12
Related Folders Missing

The Megasite folder inventory could have approximately 71,000 folders with missing
related files. We found three folders located in the PCACS inventory for which related
folders were not co-located in the box. Two of the three missing folders appeared to be
foreign claims; the remaining folder was a disability claim. The processing centers
responsible for foreign and disability claims use the Megasite to store folders. For all
three cases, PCACS indicated the related folders were filed at the Megasite, but they
could not be found. The missing folders may be at another location, misfiled or
nonexistent.

Other Housekeeping Issues

During our test of the inventory, we identified 36 boxes out of 30013 with various
housekeeping errors. These errors included boxes that were mislabeled, were filled too
tightly with folders, and contained folders that were out of sequence. We also noted
13 folders with missing labels during our physical inventory test of 200 folders.
Housekeeping is important in any inventory system. The lack of a good inventory
system can impede the location of folders and adversely affect the overall integrity of
the Megasite inventory.

The contractor is responsible for filing folders in proper sequence in the correct box and
labeling the box with the applicable SSN range of the folders. The contractor must also
move folders from boxes that are packed too tightly into the next sequenced box to
facilitate the retrieval and filing of folders. The 36 errors included 18 incorrectly labeled
boxes, 3 boxes that were packed too tightly, and 15 boxes with improperly sequenced
folders. Projected to the estimated universe of 349,965 boxes located at the Megasite,
there are approximately 42,000 boxes in the Megasite inventory that could reflect 1 or
more of the problems identified.

FOLDERS NOT DELIVERED TIMELY
Requesting components had to wait more than 2 weeks to receive over 60 percent of
the PCACS folder requests we tested. The folder delivery rate for CDRs was much
higher with 84 percent of the folders we tracked being delivered within the 2-week
period. Although we are encouraged by the timeliness of scheduled CDR folder
requests deliveries, we do not believe the time required to obtain other PCACS folders
is reasonable or acceptable.

Based on our discussions with those involved in the folder retrieval and delivery
processes, we estimated that the folder request, retrieval and delivery process should
reasonably take about 10 days.



13
  The 300 boxes are comprised of 100 boxes from our second PCACS computerized inventory test and
200 boxes from our physical inventory test.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)          13
·   Day 1: Field office requests folder; request processed overnight.
·   Day 2: Printed request package delivered to Megasite, reviewed for errors.
·   Day 3: Contractor staff pull folder, trucks deliver tubs of folders to mail room.
·   Day 4: Mailroom staff prepares packages for mailing.
·   Day 5: USPS picks up packages.
·   Day 6,7,8: USPS processes and delivers packages
·   Day 9: Packages delivered to field office mailroom
·   Day 10: Field office mailroom delivers file to requestor’s desk.

Once the contractor scans a folder out of the Megasite, there are no interrelated
systems that track the folder from the time it leaves the Megasite until it reaches its
destination and eventually returns to the Megasite. Components do not have
equipment to scan the folder upon receipt. Also, components cannot indicate in PCACS
if a folder was shipped to another field unit for action. Therefore, until the folder returns
to a PSC or storage facility and is properly scanned, PCACS will continue to indicate the
folder is located at the first requesting field unit. Consequently, we were limited in our
ability to track a folder once it left the Megasite and entered the mail system.
Nevertheless, we designed tests for both PCACS and CDR folder requests to determine
whether there was a timing difference in how these workloads were handled.

PCACS Folder Requests
To test the timeliness of the PCACS folder retrieval and delivery process, we requested
the 91 locations in our random sample of 100 components to track folder requests from
March 5 to 9, 2001. Of the 91 components, 55 requested at least 1 title II folder during
that period for a total of 401 folders. From this self-reported universe, using a weighted
average based on the type of component and the number of folders requested during
our sample period, we randomly selected 103 title II folder requests to track timeliness.

As shown in Figure 1, of the 103 folders requested, 40 (38.8 percent) were received
within the first 2 weeks. They received 14 additional folders within weeks 3 and 4.
During weeks 5 through 7, they received 22 folders. However, the components never
received 23 of the 103 folders tested (22 percent).

                            Figure 1: PCACS Requests Received by Week

                       35
                                               33
                       30
                                                                              23
                       25                                          22
            Requests




                       20
                       15
                                                  9
                       10       7                                                      4
                                                           5
                       5
                       0
                            Week 1   Week 2   Week 3   Week 4 Weeks 5-7     Not    Unknown
                                                                          received
                                                       Time

Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)         14
Of the 103 folders we randomly sampled, only 15 were actually stored and therefore
requested from the Megasite. The remainder of the requests were forwarded to the
Kansas City Caves or the Northeastern PSC. The components received none of the
15 Megasite folders during the first week and only 5 (33 percent) during the second
week. They received three more folders during the third week, but none during week 4.
Thus, just 53 percent of the 15 PCACS folders requested from the Megasite were
retrieved, mailed and received within a 4-week period. During weeks 5 and 6, the
components received four more folders from the Megasite. One other folder was
received sometime during the 6-week period, but the component could not provide a
receipt date. At the end of the 6-week period, the components had not received 2 of the
15 folders requested, about 13 percent.

The bulk of the requests (56) was for folders stored at the Caves. While we received
few complaints on how the Caves was filling folder requests, our test indicated the time
it took to deliver around 25 percent of the folders from this facility was just as lengthy as
from the Megasite. Based on this evidence, we are concerned potential issues may
also exist at the Kansas City Caves.

We could not specifically identify the reasons for delays or non-receipt of PCACS folder
requests, but possible explanations could include the improper filing of folders at the
Megasite or folder locations improperly coded in PCACS. Either one of these reasons
could cause a significant delay in obtaining a folder. Of the 15 folders in our sample of
103 that were requested from the Megasite, 10 were not scanned out of the PCACS
inventory and readied for shipping from the Megasite within the 24-hour period dictated
by the contract. For 7 of these 10 folders, it took 5 or more days to locate the file and
move it from the Megasite. Other delays or non-receipt could result from problems in
the SSA mailrooms or with USPS. Delays and the inability to find folders needed for
claimant actions can create significant public relations problems for SSA because
beneficiaries expect SSA to properly safeguard the documentation that is supplied
during the application and adjudication processes. When SSA must delay actions
because of slow folder retrieval, beneficiaries are also forced to wait. Although SSA
typically does not penalize the beneficiary for its delays, customer confidence in SSA
will erode. SSA should be careful to maintain adequate record storage and expedient
folder retrieval.

CDR Folder Requests
We were encouraged by the relative timeliness of CDR folder request deliveries. Title II
CDR folder requests are a negotiated workload. The Office of Disability determines the
number of CDRs SSA components will conduct during a cycle as a part of its annual
CDR process to meet CDR goals. Title II and title XVI CDR cycles alternate about
every 2 months. The number of CDRs needed for each cycle is divided by the number
of days available for the contractor to retrieve the folders from the Megasite folder
inventory. SSA attempts to serve all States equitably by pulling an equal percentage of
each State’s CDR requests for the cycle.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)      15
From a universe of 2,499 CDR folder requests dated March 6, 2001, we selected a
random sample of 100 folder requests to track for timeliness. For the 100 folder
requests, we telephoned the SSA components listed as the addressee on the CDR
requests to obtain the following information: if and when the folder was received, the
folder’s overall physical condition, and whether the folder contained the appropriate
medical evidence needed to conduct the CDR. Unfortunately, for 32 folders, we were
unable to determine the exact date a requested folder was received by the requesting
component because the component’s local practice did not include date stamping or
logging the receipt of folders. Consequently, we grouped these folders separately,
rather than considering them errors.

For the 68 folders we could track, the majority, 84 percent, were received within the first
2 weeks after the request was provided to the contractor. The rest of the folders were
received within the following 2 weeks. While we could not establish the actual date of
receipt for the remaining 32 folders, we did determine the folder was received.
Additionally, the offices reported that the Megasite sent only one folder that was in poor
condition and one other that lacked the relevant medical evidence.

                            Figure 2: CDR Requests Received by Week


                                 60                55
                                 50

                                 40
                                                                             32
                      Requests




                                 30

                                 20
                                                            8
                                 10
                                         2                          3
                                 0
                                      Week 1   Week 2   Week 3   Week 4   Unknown
                                                        Time


Considering 10 working days is sufficient time for the Megasite to receive a folder
request and deliver that folder to a requesting component, as shown in Figure 2,
11 folders14 from our sample took an excessive amount of time. Projected to our
universe, we estimate that 275 folders from the CDR universe of 2,499 took more than
10 days to be delivered to the requesting components.

Delays in delivery of the 11 CDR folders to the field offices may have resulted from the
contractor’s failure to find and ship the folder from the Megasite within the allowed
24-hour period. Theoretically, there may also have been mail delays at the SSA
mailroom or USPS. Unfortunately, we have no specific evidence to pinpoint the cause.

14
     Eight folders were received during week 3; three folders were received during week 4.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)         16
In any case, since field offices work CDRs in addition to their other workloads, delays in
CDR deliveries mean that field offices must put aside other priority work to complete the
CDRs timely. Thus, claimants may be inconvenienced while waiting for action on their
claim.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)   17
                                        Conclusions and
                                           Recommendations
The Megasite’s physical inventory and PCACS computerized inventory were not
accurate. We believe SSA needs to do more to oversee the Megasite contractor’s
efforts to ensure the integrity of the inventory and the inventory system. The records
maintained at the Megasite are essential for SSA to make sound decisions on
beneficiary entitlements and to deliver world class service. Therefore, we recommend
that SSA:

1. Perform independent quality assurance reviews to ensure the integrity of the
   Megasite’s folder inventory. As part of the quality assurance review process, SSA
   should assess and document the contractor’s performance in accordance with the
   contract provisions. SSA should routinely verify that the contractor is:

       -   processing all folder requests within the 24-hour time frame established
           under the contract;
       -   scanning all folders entering and leaving the Megasite facility;
       -   properly filing primary folders, merging temporary folder information with the
           primary folders and deleting the temporary folder records from PCACS;
       -   pulling all over-55 folders as instructed and sending them to Kansas City; and
       -   performing general housekeeping duties.

2. In accordance with the contract, instruct the contractor to resequence and revalidate
   the Megasite inventory at the contractor’s expense if, as a result of SSA’s quality
   assurance reviews, SSA determines there are unacceptable numbers of misfiled and
   poorly controlled folders.

3. To help identify existing problems in the Megasite inventory, we suggest that SSA
   develop as part of PCACS an automated process to periodically identify all records
   in which

       -   A primary folder and temporary folder(s) for a beneficiary are located at the
           Megasite. With these data, SSA can require the contractor to merge the
           temporary folder(s) documentation with the primary folder and delete the
           temporary folder record(s) from PCACS.

       -   Temporary folders exist but a primary folder record is not listed in PCACS.
           From these data, SSA or the contractor can search for the primary folders
           and, once located, reinstate them into PCACS.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)     18
       -   The beneficiary is over 55 years of age. To free needed storage space at the
           Megasite, SSA should explore the possibility of increasing the number of
           annual over-55 folder shipments to the Kansas City Caves. In addition, SSA
           should continue to use the claimant’s date of birth as the selection criteria to
           ensure that all over-55 folders are identified for shipment.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our overall recommendations. With
regard to our third recommendation, SSA stated that locating primary folders and
reinstating them into PCACS is outside the contractor’s scope of responsibility.
However, SSA is developing a process whereby its Megasite employees can locate and
reinstate primary folders into PCACS. SSA also stated the Kansas City Caves would
not accept more than one shipment of over age 55 folders because of workloads,
space, and transportation. SSA provided other comments, and we incorporated them
into the report as appropriate. See Appendix D for the full text of SSA's comments to our
draft report.

OIG RESPONSE
We concur with SSA’s plan to develop a process for the Megasite employees to locate
and reinstate primary folders into PCACS. Regarding shipments to the Kansas City
Caves, we understand that logistical circumstances may not be conducive to frequent
shipments. However, when the Megasite identifies a large population of over age 55
folders, we urge SSA to negotiate special shipments instead of waiting for the annual
shipment.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)     19
                                           Appendices




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                                                                          Appendix A

Prior Social Security Administration Office of the
Inspector General and Other Reviews
The Megasite has been unable to provide large numbers of disability folders to its
customers, including folders needed for audits by the Office of the Inspector General
(OIG) and its contractor, PricewaterhouseCoopers (PwC). Below are examples in
which the OIG and PwC were not provided folders in a timely manner.

¨ Effects of State Awarded Workers’ Compensation Payments on Social Security
  Benefits, A-04-96-61013 (September 1998). The Social Security Administration
  (SSA) took 15 months to locate 100 folders requested by the OIG. Of the
  100 folders we requested from March 1997 through September 1997, SSA located
  67 folders. From October 1997 through March 1998, SSA located an additional
  18 of the requested folders, bringing the total to 85 of 100. By June 1998, the
  additional 15 folders had been located.

¨ PricewaterhouseCoopers Management Letter (November 1998). As of
  October 31, 1998, SSA could not provide 12 of 66 (18 percent) folders requested in
  July 1998.

¨ Waivers Granted for Title II Overpayments Exceeding $500, A-09-97-61005
  (September 1999). OIG reported SSA could not provide 38 of the 99 disability
  folders in its sample. The audit was performed from November 1997 through
  October 1998.

¨ PricewaterhouseCoopers Management Letter (November 1999). PwC reported SSA
  could not provide 6 of 90 (6.6 percent) folders requested in 1999.

¨ PricewaterhouseCoopers Management Letter (April 2001). SSA procedures and
  systems used to secure and track case files were not consistently enforced
  throughout SSA’s operating environment. This was noted as a prior year issue.

¨ OIG Representative Payee Audit Assist. We requested 27 folders between
  December 2000 and March 2001. As of November 2001, 14 of the 27 (51.9 percent)
  folders ordered were either incomplete or could not be located by SSA.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                                                                          Appendix B

Supplemental Background Information
Individuals who perform work covered by Social Security must have a unique Social
Security number (SSN) to receive proper credit for that work. Covered earnings are
reported to and maintained by the Social Security Administration (SSA) under each
individual’s SSN. When an individual files a claim for SSA benefits, the Agency reviews
the earnings information for the individual filing the claim to determine whether the
claimant is entitled to benefits and, if so, the amount of benefits the claimant will
receive. SSA prepares a claims folder to house all material used to document action on
the claim. If the claimant files for multiple benefits, the Agency may prepare several
folders.

Processing Center Action Control System
The Processing Center Action Control System (PCACS) tracks the movement of actions
and folder records for SSNs. PCACS is designed to provide support to the claims folder
and retrieval process by establishing and controlling actions, folders, and diaries;
automating classification of most actions; controlling movements; and generating bar
codes and processing instructions. SSA describes PCACS as an integral part of it’s
System Modernization Plan, noting that PCACS’ capability to track actions and folders
enhances the management and control of processing center workflow.

The Paperless Process
SSA is piloting paperless processes that the program service centers (PSC) may use to
store claims information and the Disability Determination Services (DDS) may use to
store medical documentation. At the PSCs, mailroom personnel scan incoming
documents using high-speed scanners. These scanners handle 250 pages per minute
and are capable of scanning 2-sided documents. Casual scanners that scan single
pages will be available in every PSC module for scanning extraneous material not
scanned by the mailroom. The PSC pilots did not include the scanning of medical
records even though the medical records are primary records of interest when
conducting Continuing Disability Reviews (CDR) and making determinations of benefits.

Other paperless pilots are underway. For example, in a Kentucky DDS pilot proposal, a
third party will scan current medical information and post it to a secure website. Each
DDS will have its own website that includes cases assigned to its staff. Additionally, a
local web manager will designate individuals who can access files, as well as track files
that are accessed. Scanned documentation will be assigned a unique customer
identification number based on the DDS location. Unfortunately, the information will be
deleted from the website after a file is printed or at the end of 30 days because SSA
does not plan to pay for information storage. Therefore, this procedure will not benefit
SSA’s record retention needs.

Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)   B-1
While SSA is trying to improve end users’ abilities to obtain documentation quickly by
having data available electronically, the various pilots do not address the current
inventory of folders stored at SSA folder storage facilities. None of the pilots plan to
scan the documentation in the existing folders. Only current and prospective data will
be captured as it flows through the PSC or DDS. In addition, current pilots do not
address the massive amounts of archival space that will be needed to store scanned
information as increasing numbers of baby boomers retire or become disabled. For the
long-term, if information is needed from a claimant’s prior paper folder, the folder must
still be requested through PCACS from a record storage facility. Hence, for years to
come, SSA will need to maintain accurate physical inventories at the folder storage
facilities.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)   B-2
                                                                                Appendix C

Sampling Methodology and Results
We obtained access from the Social Security Administration (SSA) to the Processing
Center Action Control System (PCACS) computerized inventory that contains the
locations of title II folders. To test the PCACS inventory, we randomly selected
200 Social Security numbers (SSN) from this file and reviewed the appropriate box on
the floor of the Megasite to verify that the folder was properly filed and maintained.
Specifically, we selected a sample of 100 Office of Disability Operations folders listed in
the Megasite PCACS computerized inventory on March 6, 2001 and traced the sampled
items to the designated file location. For projection purposes, we selected a second
sample of 100 folders from the entire universe of 4,754,668 folders stored for the
Offices of Disability Operations and International Operations on March 7, 2001. We
traced the 100 sampled items to the designated file location (PCACS Computerized
Inventory Test). To test the physical inventory, we randomly selected 200 terminal digit
ranges between 0001 and 9999. For each terminal digit selected, we picked the first
folder from the first box in that terminal digit range as our sampling unit. We then
verified that the folder was appropriately listed in the PCACS computerized inventory.
During our tests of the inventory, we reviewed 300 boxes for housekeeping errors.

To test folder retrieval and timeliness for Continuing Disability Reviews (CDRs), we
obtained the list of CDRs provided to the Megasite for retrieval on March 6, 2001. We
randomly selected 100 SSNs from this universe and contacted the designated
components to determine when the folders were received. To test the timeliness of the
PCACS folder retrieval and delivery process, we requested our random sample of
100 components to track folder requests during the period March 5 to 9, 2001. We
identified 9 components that did not request folders. Of the remaining 91 components
that regularly requested folders, 55 requested at least one title II folder during the
sampling period for a total of 401 folders.1 From this self-reported universe and using a
weighted average based on the type of component and the number of folders requested
during our sample period, we randomly selected 103 title II folder requests to track
timeliness by contacting the requesting component to determine folder receipt. Our
projections were made at the 90 percent confidence level.




1
 We did not verify these reported results for accuracy or reasonableness. We simply selected a random
sample of these folders to determine Megasite folder retrieval and delivery timeliness.


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)              C-1
                         Sample Results and Projections
Population Sizes           Number of Folders at Megasite                           4,754,668
                           Estimated Number of Boxes at Megasite                     349,965
                           Number of CDRs on March 6, 2001                             2,499
                           Number of Field Requests March 5-9, 2001                      401
Sample Sizes               Folders Sampled / Projected – Computerized                    100
                           Folders Sampled / Projected –Physical                         200
                           Boxes Reviewed                                                300
                           Folders Sampled – CDRs                                        100
                           Folders Sampled – Field Requests                              103
                                 Attribute Projections
Sampled folders not accurately reflected in physical inventory                              10
Projection of folders not accurately reflected in physical inventory                   237,733
Projection of lower limit                                                              130,157
Projection of upper limit                                                              396,228

Sampled folders not accurately reflected in computerized inventory                           2
Projection of folders not accurately reflected in computerized inventory                95,093
Projection of lower limit                                                               16,951
Projection of upper limit                                                              292,977

Sampled temporary folders not merged with primary folders                                    8
Projection of temporary folders not merged with primary folders                        190,187
Projection of lower limit                                                               95,364
Projection of upper limit                                                              337,646

Sampled temporary folders missing primary folders                                            6
Projection of temporary folders missing primary folders                                142,640
Projection of lower limit                                                               62,496
Projection of upper limit                                                              277,431

Sampled folders for beneficiaries over age 55                                                5
Projection of folders for beneficiaries over age 55                                    118,867
Projection of lower limit                                                               47,078
Projection of upper limit                                                              246,496

Sampled folders missing related folders                                                      3
Projection of folders missing related folders                                           71,320
Projection of lower limit                                                               19,497
Projection of upper limit                                                              182,148

Sampled folders with missing labels                                                         13
Projection of folders with missing labels                                              309,053


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)      C-2
Projection of lower limit                                                              184,828
Projection of upper limit                                                              481,916

Sampled boxes with housekeeping errors                                                      36
Projection of boxes with housekeeping errors                                            41,996
Projection of lower limit                                                               31,635
Projection of upper limit                                                               54,369

Sampled CDR folders taking longer than 10 days for delivery                                11
Projection of CDR folders taking longer than 10 days for delivery                         275
Projection of lower limit                                                                 159
Projection of upper limit                                                                 436




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)      C-3
                                                                          Appendix D

Agency Comments




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                                          SOCIAL SECURITY

MEMORANDUM                                                                       29218-24-545


Date:      July 10, 2002                                                           Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Case Folder Storage and Retrieval at the
           Social Security Administration’s Megasite Records Center” (A-04-99-62006)—
           INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Trudy Williams on extension 50380.

           Attachment:
           SSA Response




           Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)        D-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE OFFICE
OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “CASE FOLDER STORAGE
AND RETRIEVAL AT THE SOCIAL SECURITY ADMINISTRATION’S MEGASITE
RECORDS CENTER” (A-04-99-62006)


Recommendation 1

SSA should perform independent quality assurance reviews to ensure the integrity of the
Megasite’s folder inventory. As part of the quality assurance review, SSA should assess and
document the contractor’s performance in accordance with the contract provisions. SSA should
routinely verify that the contractor is: 1) Processing all folder requests within the 24-hour
timeframe established under the contract; 2) scanning all folders entering and leaving the
Megasite facility; 3) properly filing primary folders, merging temporary folder information with
the primary folders and deleting the temporary folder records from Processing Center Action
Control System (PCACS); 4) pulling all over-55 folders as instructed and sending them to
Kansas City; and 5) performing general housekeeping duties.

Comment

We agree with this recommendation. SSA currently performs quality review to ensure that all
contractor activities are measured, including proper recordation, sequencing, and misfiling of
folders. We are continuing to refine the procedures for the review process.

The Megasite Quality Assurance Technicians (QAT) monitor the workflow and control the
folder requests that are given to the contractor. There are very rare occasions when the
contractors do not process folder requests timely and the contractor usually meets the turn around
time stated in the contract.

Several situations may impact the timeliness of folder retrieval. For instance, the contractor
cannot send out folders without a label. However, contract employees are not responsible for
preparing labels unless the label on the folder is torn, mutilated or will not scan. If the label is
missing from a folder, the contractor has to give the folder to the QATs to prepare the folder
label. The preparation of labels by the QATs can sometimes hold up the folder from recordation
and the physical transfer for a day or more. Also, if a folder is not in file (NIF), the contractor
has to obtain a query to determine the location of the folder. If the query shows that the folder
was just returned to the Megasite, the contractor holds the retrieval request until the folder is
actually filed.

The QATs at the Megasite review 100 percent of folder requests that are returned from the
contractor as NIF. In addition, the QATs perform random samples of folders entering and
leaving the Megasite. Any items that need corrective action are returned to the contractor.

The National Records Center (NRC) in Kansas City controls the transfer of over-55 and death
terminations. The contractor is not responsible for pulling those folders on a daily/routine basis.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)             D-2
OCO provides the contractor with a list of SSNs for transfer once a year, usually in October.
Additional information on the NRC is included at Recommendation 3.

Recommendation 2

In accordance with the contract, SSA should instruct the contractor to resequence and revalidate
the Megasite inventory at the contractor’s expense if, as a result of SSA’s quality assurance
reviews, SSA determines there are unacceptable numbers of misfiled and poorly controlled
folders.

Comment

We agree with this recommendation. If, as a result of SSA’s quality assurance reviews, it is
determined there are unacceptable numbers of misfiled and incorrect recordation, we will
request, through our Office of Acquisition and Grants, a resequencing and revalidation of the
Megasite’s inventory at the contractor’s expense.

However, the results of our most recent quality assurance reviews indicate there has been
improvement in retrieving folders and the problem is not as severe as it was 4 years ago when the
OIG began its audit. In reviewing quality assurance data for the period October 2000 through
August 2001, our records show a 98.4 percent locate rate for folder retrieval and for the period
December 2001 through May 31, 2002, the locate rate is 98.58 percent. Our most current data
shows 1,038 folders reviewed with accuracy rates of 95.2 percent for recordation, 99.9 percent
for sequencing and 99.7 percent for misfiles.


Recommendation 3

SSA should develop as part of PCACS an automated process to periodically identify all records
in which: 1) A primary folder and temporary folder(s) for a beneficiary are located at the
Megasite. With these data, SSA can require the contractor to merge the temporary folder(s)
documentation with the primary folder and delete the temporary folder record(s) from PCACS;
2) temporary folders exist, but a primary folder record is not listed in PCACS. From these data,
the contractor can search for the primary folders and, once located, reinstate them into PCACS;
and 3) the beneficiary is over 55 years of age. To free needed storage space at the Megasite,
SSA should explore the possibility of increasing the number of annual over-55 folder shipments
to the Kansas City Caves. In addition, SSA should continue to use the claimant’s date of birth as
the selection criteria to ensure that all over-55 folders are identified for shipment.

Comment

We agree with this recommendation overall, but do not agree with the proposed corrective action
for part of the recommendation. Regarding item 1 of the recommendation, we agree and will
develop a local program to capture all primary and temporary folders with the same SSN housed
in the Megasite. The list will be given to the contractor for corrective action, at no additional
charge to the government (the Office of International Operations temporary folders and primary


Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)            D-3
folders cannot be merged into a Title II primary folder or temporary folder). The target date for
implementation of the temporary/primary folder listing is September 9, 2002.

We agree with the intent of item 2 of the recommendation, but do not agree with the proposed
corrective action. Contractually, the contractor is not responsible for locating the primary folder
if it is not housed at the Megasite or recorded on PCACS to the Megasite. SSA (QATs)
employees determine whether a primary folder exists and where the folder is located. If the
QATs determine the folder should be housed at the Megasite, the folder is requested and given to
the contractor for recordation and filing. The QATs also determinate whether the temporary
folder should be deleted and the material sent to another component.

SSA will develop a local program to capture the SSNs of all temporary folders that do not have a
primary folder recorded to the Megasite. SSA will also develop a process the QATs can use to
locate and determine whether a primary folder should be housed at the Megasite. The target
implementation date for implementation of both these initiatives is September 9, 2002.

With regard to item 3 of the recommendation, the National Record Center (NRC) in Kansas City
controls the age 55 folder transfer. At this time, the NRC will only accept one shipment per
year, usually in October. NRC has indicated it is not feasible for them to accept the age 55
folders more than once per year due to workloads, space, transportation, etc. Discussions
between SSA staff and NRC on the age 55 folder transfer are ongoing.

SSA currently uses the date of birth to determine age-55 and will continue to use that criterion
for selection.

Other Comments

The contractor only retrieves the folder with the SSN-suffix (SSNX) recorded on the request
with the exception of folders rubber banded together. Some folders cannot leave the Megasite,
i.e. end stage renal disease temporary folders. The contractor would have no way of knowing
what folder is related to another unless the folders were in the file together. It is not the
responsibility of the contractor to determine if the correct medical evidence is in file. They
retrieve the folder as requested. They are not supposed to look inside the folder.
The contractor prepares a new folder jacket when the current folder is torn in half. They do not
repair folders that are only damaged. When the statement of work was written, it was decided
that only folders completely torn in half would be replaced. Many
folders are damaged or torn and the cost would be prohibitive to have every folder jacket
replaced.

On page 9 of the report, the Inventory Test Results are slightly skewed. Table 1 shows 32 errors.
However, the “Temporary folders inventoried, but no primary folder” item shows 6 instances
and “Folders, over age 55, located at the Megasite” item shows
5 instances--these are not controlled by the contractors. In addition, in Table 2, of the
10 errors shown, 6 were for “Folders over the age of 55, located at the Megasite.” Again, the
over age 55 folders are not controlled by the contractor.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)           D-4
SSA is currently in the process of developing and implementing an electronic disability business
process. This plan includes automating the disability intake process; creating an electronic folder
and interface to existing SSA/Disability Determination Services systems; automating the Office
of Hearing and Appeals, incorporating electronic medical evidence and forms; converting
incoming evidence and documents to digital images; and supporting internal paperless caseload
management. Using an electronic folder will enable SSA to eliminate many of the costs
associated with handling, tracking and managing paper folders. The electronic folder will be
created when a disability case is initially filed and will enable all disability case processing
components to access, review and electronically transact business involving the disability folder.
The plan to implement an electronic folder has been accelerated and SSA will begin
implementing its new electronic disability process in calendar year 2004.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)           D-5
                                                                          Appendix E

OIG Contact and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Director, Southern Audit Division (205) 801-1605

Acknowledgments
In addition to those named above:

   James D. O’Hara, Deputy Director

   Paula W. Johnson, Senior Auditor

   Catherine Burnside, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General's Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-99-62006.




Case Folder Storage and Retrieval at the SSA Megasite Records Center (A-04-99-62006)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
